U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 26, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Jose Santos Sanchez, et al. v. Chad Wolf, Acting Secretary of Homeland
Security, et al., No. 20-315
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 8,
2020. The government’s response is now due, after one extension, on November 12, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 9, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioners takes no position on this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0315
SANCHEZ, JOSE S., ET AL.
CHAD WOLF, ACTING SEC. OF HOMELAND
SECURITY, ET AL.

JAIME WINTHUYSEN APARISI
8630 FENTON STREET
SUITE 932
SILVER SPRING, MD 20910
301-562-1416
JAIME@APARISI.COM

